<html>
<title> - FROM COMPETITION TO COLLABORATION: STRENGTHENING THE U.S.-RUSSIA RELATIONSHIP</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
   FROM COMPETITION TO COLLABORATION: STRENGTHENING THE U.S.-RUSSIA 
                              RELATIONSHIP

=======================================================================


                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 25, 2009

                               __________

                            Serial No. 111-4

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE
47-667                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c6a1b6a986a5b3b5b2aea3aab6e8a5a9abe8">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON,                     MIKE PENCE, Indiana
    California<greek-l>              JOE WILSON, South Carolina
ADAM SMITH,                          JOHN BOOZMAN, Arkansas
    Washington deg.<greek-l>Until    J. GRESHAM BARRETT, South Carolina
    2/9/09 deg.                      CONNIE MACK, Florida
RUSS CARNAHAN, Missouri              JEFF FORTENBERRY, Nebraska
ALBIO SIRES, New Jersey              MICHAEL T. McCAUL, Texas
GERALD E. CONNOLLY, Virginia         TED POE, Texas
MICHAEL E. McMAHON, New York         BOB INGLIS, South Carolina
JOHN S. TANNER, Tennessee            GUS BILIRAKIS, Florida
GENE GREEN, Texas
SHEILA JACKSON LEE, Texas
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
VACANT<greek-l>As of 2/10/09 deg.
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                Amanda Sloat, Professional Staff Member
        Genell Brown, Senior Staff Associate/Hearing Coordinator


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Robert H. Legvold, Ph.D., Professor, Columbia University.........     8
The Honorable Steven Pifer, Visiting Fellow, Center on the United 
  States and Europe, Brookings Institution (former Ambassador to 
  Ukraine).......................................................    24
Andrei Illarionov, Ph.D., Senior Fellow, Center for Global 
  Liberty and Prosperity, Cato Institute.........................    41

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Robert H. Legvold, Ph.D.: Prepared statement.....................    11
The Honorable Steven Pifer: Prepared statement...................    27
Andrei Illarionov, Ph.D.: Prepared statement.....................    44

                                APPENDIX

Hearing notice...................................................    76
Hearing minutes..................................................    77
The Honorable Howard L. Berman, a Representative in Congress from 
  the State of California, and Chairman, Committee on Foreign 
  Affairs: Prepared statement....................................    79
The Honorable Gerald E. ``Gerry'' Connolly, a Representative in 
  Congress from the Commonwealth of Virginia: Prepared statement.    82
The Honorable Donald A. Manzullo, a Representative in Congress 
  from the State of Illinois: Prepared statement.................    83
The Honorable Michael E. McMahon, a Representative in Congress 
  from the State of New York: Prepared statement.................    85
The Honorable Diane E. Watson, a Representative in Congress from 
  the State of California: Prepared statement....................    86


                   FROM COMPETITION TO COLLABORATION:
                     STRENGTHENING THE U.S.-RUSSIA
                              RELATIONSHIP

                              ----------                              


                      WEDNESDAY, FEBRUARY 25, 2009

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:08 a.m. in 
room 2172, Rayburn House Office Building, Hon. Howard L. Berman 
(chairman of the committee) presiding.
    Chairman Berman. Good morning. The committee will come to 
order.
    We are holding this full committee hearing--our first full 
committee hearing in the 111th Congress--to examine one of 
America's most important, yet often neglected, bilateral 
relationships, with the Russian Federation.
    I will yield myself 7 minutes for what I hope will be an 
infrequent, but somewhat long, opening statement.
    The Cold War is long over, and yet in recent times this 
relationship, that is<greek-l>, deg. the relationship between 
the United States and the Russian Federation, has been quite 
chilly. We don't always agree. But Washington and Moscow face a 
number of common challenges that could form the basis for a 
more constructive partnership.
    At the Munich Security Conference, Vice President Biden 
lamented the ``dangerous drift in relations'' between Russia 
and the NATO alliance, while at the same time calling for a 
reassessment of areas in which we can work together. The 
positive response his remarks generated among Russian officials 
indicates that Moscow may also be willing to, in the Vice 
President's words, ``press the reset button.''
    At the heart of our relationship with Russia lie a number 
of interrelated foreign policy issues and challenges: Iran's 
nuclear program, the war in Afghanistan, the future of NATO, 
peace and security in the Caucasus and the Balkans, missile 
defense, and arms control.
    Unfortunately, there has been a tendency in recent years to 
stovepipe these issues--addressing them in isolation without 
establishing a clear set of priorities<greek-l>, deg. or 
integrating them into--to use Professor Legvold's words--``a 
comprehensive and coherent foreign policy.''
    One important question concerns Russia's perception of its 
vital interests, particularly its engagement with its near 
abroad. Some of Russia's recent behavior toward its neighbors 
has been deeply troubling. Its decision to recognize South 
Ossetia and Abkhazia as independent states was a mistake that 
undermines regional stability. The recent dispute with Ukraine 
regarding the price and transit of gas left many Eastern 
Europeans without heat in the dead of winter. Russia's apparent 
role in persuading Kyrgyzstan to close a vital American air 
base on its territory--while allowing United States supplies to 
transit Russian territory--will complicate United States 
efforts to conduct essential military operations in 
Afghanistan.
    How are we to understand these actions? Are they part of a 
larger pattern of behavior through which Russia is seeking to 
reassert its power over former Soviet states and define itself 
as America's strategic competitor? This was the troubling 
conclusion that some observers reached last August when Russian 
President Medvedev spoke about regions where Russia has 
``privileged interests.'' Or does Russia, as some others have 
suggested, perceive itself simply as acting in self-defense 
against an expansionist NATO and Western encirclement?
    Second, questions have been raised about the linkage 
between Russia's sense of financial well-being and its foreign 
policy assertiveness. Higher oil prices, it has been argued, 
have increased Russia's political and economic 
leverage<greek-l>, deg. and emboldened Moscow to oppose United 
States policies it finds objectionable.
    Yet Russia, like the United States and most of the world, 
has suffered from the global financial downturn. What 
opportunities, if any, has the current crisis created in terms 
of encouraging greater economic engagement with Russia? And 
would closer commercial ties help create the conditions for 
greater political cooperation down the road?
    A third set of issues concerns NATO. While some members of 
the alliance have argued that eastward enlargement will promote 
democracy and stability among aspiring members, Russia has 
charged that NATO is seeking to assert regional dominance and 
threatens Russian security. Is pausing or slowing the pace of 
enlargement likely to encourage greater cooperation from Russia 
in addressing challenges in the Balkans, Caucasus, and Iran? 
Should the alliance make greater use of the NATO-
Russia<greek-l>n deg. Council to engage Moscow as a partner?
    It is clear that improving our bilateral relations will 
require good will and serious effort by both sides. In that 
context, the Obama administration and Congress should examine 
what steps we should take to shift the United States-Russia 
relationship from confrontation to collaboration.
    For example, should we consider ``graduating'' Russia from 
the so-called Jackson-Vanik trade restrictions? Should the 
United States assist Russian efforts to progress more quickly 
toward membership in the World Trade Organization? Clearly part 
of the roadmap for WTO accession is <greek-l>the 
deg.implementation of the IPR agreement, which was signed over 
2 years ago in November 2006. While some progress has been 
made, I am troubled by reports, for example, that Russia has 
failed to take adequate enforcement actions against plants 
involved in producing pirated CDs and DVDs.
    There are also numerous arms control, 
security<greek-l>, deg. and nonproliferation issues to be 
addressed by our countries in the coming year. Should the 
United States bring into force the U.S.-Russia Agreement for 
Nuclear Cooperation that the Bush administration withdrew from 
Congress after the Georgia conflict, and under what 
circumstances? Should the new administration continue to pursue 
missile defense in the Czech Republic and Poland as it seeks to 
engage Russia in efforts to prevent the emergence of a nuclear-
armed Iran?
    And finally, what is the appropriate role for the promotion 
of democracy, human rights<greek-l>, deg. and the rule of law 
in our relationship with Russia? The trends in recent years 
have been troubling. Journalists and opinion leaders who are 
critical of the government have suffered physical attacks and 
even have been murdered. Political pressure on the judiciary, 
corruption in law enforcement, and harassment of some non-
governmental organizations undermine the accountability of the 
Russian Government. There are also disturbing reports of 
vicious attacks motivated by xenophobia, neo-Nazism, or anti-
Semitic tendencies. To what extent and in what manner should 
the United States continue to press Moscow on these issues?
    The United States-Russia relationship is exceptionally 
complex. We undoubtedly will continue to agree on some issues 
and disagree on others. But it clearly is in our national 
interest to promote more positive ties with Moscow if doing so 
will help us achieve some of our most urgent foreign policy 
goals, such as preventing Iran from developing a nuclear 
weapons capability. I believe that Iran should be at the top of 
the agenda in our bilateral discussions.
    The committee is fortunate to have three witnesses with us 
today who are uniquely qualified to help us answer some of 
these questions. Ideally, we will not only talk about what 
pressing the reset button might mean, but we will also fast-
forward to consider the benefits to global security that 
improved United States-Russian relations might yield in the 
future.
    It is now my pleasure to turn to the distinguished ranking 
member, Ileana Ros-Lehtinen, for any opening comments that she 
may wish to make and I yield her 7 minutes for that purpose.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman, and 
thank you for holding this important hearing. As you have 
stated, Vice President Biden indicated that the new 
administration wants to press the reset button on the United 
States-Russia relationship, and many of us are eager to move 
toward a more cooperative relationship.
    Unfortunately, as we know over the past 10 years, we have 
seen the Russian Government, led by Vladimir Putin, steadily 
become more authoritarian at home, and more aggressive and 
destabilizing in its policies abroad.
    Since assuming the Presidency of Russia in 2000, and 
continuing in his current post as Prime Minister, Mr. Putin has 
consolidated his power, restricted the activities of political 
opposition parties, and used various means to stifle 
independent media and nongovernmental organizations.
    It has also become increasingly apparent that corruption 
within the Russian Government is widespread, and reaches to the 
highest levels. Many of those who have sought to criticize or 
expose that corruption have in fact been threatened and on 
occasion beaten or murdered.
    The Russian Government under Mr. Putin has also expanded 
its control over large scale businesses, particularly in the 
energy sector. It has used its de facto control over nominally 
private sector energy companies to shut off energy supplies to 
several neighboring states at times of political disagreement 
with those states.
    In its foreign policy the Russian Government's actions not 
only constitute a threat to critical United States security 
interests, but are destructive to Russia's own long term 
interests.
    Perhaps in an effort to create a growing challenge for the 
United States in the Persian Gulf region, the Putin government 
has provided nuclear technology and advanced weapons to Iran.
    In the long run, however, the fundamentalist leaders in 
Tehran will have no greater affinity for Moscow once they have 
the nuclear arsenal they seek, and they will certainly increase 
their involvement in radicalizing nations on Russia's borders.
    It is also not in Russia's interests to see extremism 
spread north into Russia from Afghanistan.
    Yet while Russian officials express a willingness to 
support our efforts in Afghanistan, Russia is clearly working 
to persuade the Central Asian country of Kyrgyzstan to close a 
United States air base on its territory that is vital to 
supporting our mission in Afghanistan.
    The Russian invasion of Georgia last year, which followed 
years of increasingly provocative actions by the Putin 
government in the separatist regions of that country, has led 
many in the United States and Europe who have supported closer 
relations with Russia to question its intentions.
    In fact, the recognition of the separatist regions in 
Georgia by the Putin government may well reopen painful 
questions regarding Russian sovereignty over parts of its own 
territory that may seek independence.
    While the United States and the European Union have 
maintained an arms embargo on China since the Tiananmen 
massacre in Beijing 20 years ago, Russia has sold significant 
quantities of advanced weaponry to that country.
    At a time when Russia's population is declining, and its 
economy is under developed, it seems ironic that the Russian 
Government on its own would help arm a neighbor such as China, 
whose population and economy are set to far outstrip it.
    I hope that our witnesses today will speak to the factors 
driving Russian foreign policy as dictated and managed by Mr. 
Putin.
    It is vital to know how that policy is influenced by a 
general resentment of the United States and a desire to create 
challenges to United States influences in key regions such as 
the Persian Gulf and the Straits of<greek-l>f deg. Taiwan.
    It is also important for us to know how far Mr. Putin and 
his top officials might go if they thought that a more 
aggressive foreign policy, perhaps another invasion of Georgia, 
might help preserve their popularity among average Russians as 
the Russian economy follows downward the declining prices for 
its oil exports.
    Today, Mr. Chairman, I will be introducing a resolution 
calling on President Obama to work with the other six original 
member states of what is known as the G-8 group of states to 
terminate the Russian Government's participation in that group 
until the President determines that the Russian leadership has 
taken substantive steps in removing restrictions on the 
political opposition, independent media, and human rights 
groups in Russia, implemented free market reforms and tackled 
corruption at all levels, stopped using energy as a political 
tool against its neighbors, fulfilled its commitment to 
withdraw its military from the separatist region of Moldova and 
from the separatist regions of Georgia, and ceased all actions 
that threaten the sovereignty and territorial integrity of 
Russia's neighbors.
    Since the Soviet Union broke apart in 1991, the United 
States and the European Union have pursued policies meant to 
integrate a stable and reformed Russia, as a partner at least, 
if not a full member, of their trans-Atlantic community of 
nations.
    We cannot continue to support integration, however, if it 
serves to spread corruption and destabilization in the regions 
neighboring Russia and lying on its periphery.
    Until that principle is accepted by the Russian leadership, 
I doubt that a so-called ``reset'' of our relationship with 
Russia would serve our long term interests and our values.
    Thank you, Mr. Chairman, again, for holding this hearing, 
and I also thank our distinguished witnesses for appearing 
before our committee today. Thank you.
    Chairman Berman. Thank you. The time for the gentlelady has 
expired, and I am now pleased to recognize for an opening 
statement the chairman of the Europe Subcommittee, and if he 
joins us, the ranking member of that subcommittee, for a 3-
minute opening statement. Mr. Wexler, you are recognized for 3 
minutes.
    Mr. Wexler. Thank you very much, Mr. Chairman. I will be 
brief. I think Vice President Biden summed up very 
appropriately what our new relationship or evolving 
relationship with Russia needs to be in terms of the reset 
button.
    But it seems to me that it is something that I would be 
curious to hear, the thoughts of the three powers. My 
impression is that if you analyze from an objective point of 
view the last 6 years or so of American-Russian relationships, 
we went from a point--``we'' meaning the United States--we went 
from a point where we have a set of cards that allowed us to 
exert a fair degree of influence where we may or may not have 
been successful, but we at least had a set of cards to play.
    And then as a result, in part because of rising gasoline 
prices<greek-l>, deg. and other political-geopolitical factors, 
that set of cards dramatically shifted so that the ability of 
the United States to influence Russian action became somewhat 
marginalized.
    I would be curious if you could speak to that issue, if you 
believe it is an accurate statement, and what we can do about 
it.
    Quickly also if I could, I came back from Turkey last week, 
and it seems to me that we are on the cusp of a historic 
opportunity with respect to Turkish-Armenian relations, and the 
possibility in 2009 for extraordinary engagement between those 
two countries, and the possibility of opening the borders, and 
then things that might follow, such as normalization.
    I am curious if you could speak to the potential for 
American-Russian cooperation in this regard, and the particular 
unique role that Russia might play, if it <greek-l>is 
deg.chose to with respect to this kind of engagement, which if 
it were successful might change the dynamic in the region quite 
dramatically for the positive. And is this an opportunity for a 
new type of American-Russian engagement, where mutual benefits 
to both countries might be had? Thank you very much, Mr. 
Chairman.
    Chairman Berman. The time for the gentleman has expired. I 
am now going to recognize members of the committee who wish to 
make a 1-minute opening statement, and the first is the 
chairman of the subcommittee that deals very much with the 
issues coming within the range of this hearing, Mr. Brad 
Sherman of California.
    Mr. Sherman. Thank you, Mr. Chairman. We need Russia's help 
to stop Iran's nuclear program, the fault of the present 
circumstances, and chilliness between the two countries lies in 
Washington, as well as Moscow.
    We supported self-determination for the Soviet Republics 
and the Yugoslav Republics in the Kosovo region. We opposed 
self-determination for South Ossetia, Dacia, Transnistria, 
Moldova, and Northern Kosovo.
    Some would say this is inconsistent. The fact is that it is 
consistently anti-Russian. Nine-eleven has been analogized to 
Pearl Harbor. We prevailed in World War II only by allying our 
selves with a Soviet Union whose flaws dwarf the most scathing 
criticism anyone could make of the current Russian regime.
    I look forward to linking how we deal with Russia on every 
issue, including missile defense in Poland and the Czech 
Republic, to how they deal with the Iran nuclear program. I 
yield back.
    Chairman Berman. I thank the gentleman. The gentleman's 
time has expired. The gentleman from New Jersey, Mr. Smith.
    Mr. Smith. Thank you. Mr. Chairman, while both the 
bilateral and multilateral relations with Russia are under 
review and reappraisal, I hope our distinguished witnesses to 
the committee today will provide insights on the state of human 
rights in Russia, and give us a broad overview, but also focus 
on some of the key issues that I think are very much in flux, 
and probably to the negative.
    As one of the six organizers of the new global initiative 
to combat the rising tide of anti-Semitism, I was in the United 
Kingdom last week for what we called the London Conference to 
Combat Anti-Semitism. It is becoming increasingly clear, 
especially during the Gaza crisis, that that is being used as a 
pretext to target Jewish people, to target synagogues and 
cemeteries.
    And obviously no country, including our own, is immune from 
that kind of vicious hate. Russia, unfortunately, has had a 
terrible history of anti-Semitism. One of our key featured 
speakers at this conference was Natan Sharansky. Mr. Sharansky 
could not have been more eloquent again in calling for all 
nations, including Russia, to combat this vicious hate 
everywhere it rears its ugly head.
    So if our panelists could speak to that issue, I think it 
would be very helpful.
    Chairman Berman. The gentleman's time has expired. The 
gentleman from New Jersey, Mr. Sires. Does any member of the 
committee have an opening statement on the Democratic side? Mr. 
Delahunt. The gentleman is recognized for 1 minute.
    Mr. Delahunt. I just want to associate myself with the 
remarks of Mr. Sherman. And also continued references to the 
invasion of Georgia by Russia, I don't think speak to the 
facts. There have been multiple reviews of what actually 
<greek-l>what  deg.happened on the ground, and I think it is 
inescapable that a decision was made by Mr. Saakashvili to 
launch a military initiative that clearly provoked a 
substantial response.
    I think it is important that we speak to the facts and 
simply don't draw conclusions until we are satisfied that we 
have ascertained what the reality is, and with that I yield 
back.
    Chairman Berman. The time for the gentleman has expired. 
The gentleman from California, Mr. Royce, is recognized for 1 
minute.
    Mr. Royce. Thank you, Mr. Chairman. It is natural to assume 
that a new day abroad is going to be upon us because we have a 
new administration, and I think some are going to suggest that 
only if we do this or that differently now, therefore relations 
with Russia are going to improve.
    But as one witness will point out, there is no indication 
that things in Russia will change or improve because we have a 
new President. Russia's foreign policy, so troublesome on many 
fronts, stems really from its autocratic internal politics.
    There is also strong anti-Americanism that is whipped up by 
its government. President Bush was wrong to personalize his 
diplomacy with President Putin, but personal diplomacy will not 
affect the Russian apparatchiks perceived interests.
    Changes in United States foreign policy therefore will not 
necessarily usher in a new era of collaboration. Collaboration 
on Iran, for one, is unlikely to improve over the next few 
critical years, whatever we do, and I think that is the real 
politic of where Russia is.
    Thank you, Mr. Chairman.
    Chairman Berman. The time of the gentleman has expired. Any 
further members wish to make an opening statement? The 
gentleman from Georgia, Mr. Scott, is recognized for 1 minute.
    Mr. Scott. Thank you, Mr. Chairman. I will be just very 
brief. I think the fundamental question we really have to ask 
ourselves is: What do the Russians want to do? I get a sense 
that the best description I can give to them right now is that 
they suffer from sort of a dichotomized schizophrenia.
    I have just returned with some of my NATO colleagues from 
visiting four countries last weekend in Europe: France, 
Germany, Austria and Belgium. And at each stop Russia was the 
big elephant in the room.
    And I think on the one hand, they say they want to help us 
with nuclear nonproliferation, and at the same time they are 
giving nuclear technology to Korea and to Syria. On the other 
hand, they say they may want to help us.
    If we have an opportunity, they could help us in 
Afghanistan, and as soon as our President announces that we 
have got 17,000 troops to go there, they work to close our 
base. So I think the question is: What do they want to do?
    Chairman Berman. The time for the gentleman has expired.
    If there are no further opening statements, I am very 
pleased to introduce really an expert panel of witnesses today.
    Robert Legvold is the Marshall D. Shulman Professor 
Emeritus--Marshall D. Shulman being one of the preeminent 
Russian scholars of our time--in the Department of Political 
Science at Columbia University, where he has specialized in the 
international relations of the post-Soviet states.
    Prior to coming to Columbia in 1984, Professor Legvold 
served as senior fellow and director of the Soviet studies 
project at the Council on Foreign Relations. He was previously 
a faculty member at the Department of Political Science at 
Tufts University.
    His most recent book is a collaborative 
volume<greek-l>, deg. entitled, ``Russian Foreign Policy in the 
Twenty-first Century<greek-l>, deg. and the Shadow of the 
Past.'' Presently, Professor Legvold is project director for a 
large study of United States policy toward Russia at the 
American Academy of Arts and Science.
    I personally must say that he holds a special place for me 
as an educator on Russia at numerous Aspen Institute meetings, 
and is director of the Russia Project that I have just 
mentioned.
    Steven Pifer is currently a visiting fellow at the 
Brookings Institution's Center on the United States and Europe. 
A retired Foreign Service Officer, Ambassador Pifer spent more 
than 25 years with the State Department focused on United 
States relations with the former Soviet Union and Europe, as 
well as arms control and security issues.
    He served as United States Ambassador to Ukraine, deputy 
assistant secretary with responsibilities for Russia and 
Ukraine, as well as senior assistant to the President, and 
senior director for Russia, Ukraine, and Eurasia, on the 
National Security Council.
    Ambassador Pifer recently published a Brookings policy 
paper<greek-l>, deg. entitled, ``Reversing the Decline: An 
Agenda for United States-Russia Relations in 2009,'' which 
provides the basis for his testimony today.
    Andrei Illarionov is a senior fellow at the Cato 
Institute's Center for Global Liberty and Prosperity. Dr. 
Illarionov was the chief economic advisor of Russian President 
Vladimir Putin from 2000 to 2005. He also served as the 
President's personal representative in the G-8. From 1993 to 
1994, Dr. Illarionov served as chief economic advisor to the 
Prime Minister of the Russian Federation, Victor Chernomyrdin. 
He resigned in February 1994 to protest changes in the 
government's economic policy and founded the Institute of 
Economic Analysis later that year. Dr. Illarionov has co-
authored several economic programs for Russian governments, and 
has written three books<greek-l>, deg. and more than 300 
articles on Russian economic and social policies.
    It is the custom of the committee to ask the witnesses to 
try and summarize their really excellent written testimony in 
about 5 minutes. I would commend to my colleagues on the 
committee that reading the testimony in full is worth their 
time. Then we will go to developing your comments and 
questions. So, Dr. Legvold, if you would start.

  STATEMENT OF ROBERT H. LEGVOLD, PH.D., PROFESSOR, COLUMBIA 
                           UNIVERSITY

    Mr. Legvold. Mr. Chairman, committee members, it is a 
pleasure to appear before you today, and I commend the 
committee for scheduling this hearing on Russia early, indeed 
your first hearing in this session, and commend you for framing 
the issue the way that you are framing the issue.
    That is, in a way that acknowledges the importance of the 
United States-Russia relationship, and at the same time how 
troubled that relationship has become, especially in the last 5 
years, and with dramatic speed since the Georgian War in 
August.
    This is important, the subject itself, because I think that 
a critical source of the problem in United States-Russia 
relations has been the long failure on both sides, both on the 
Russian side, and on the United States side, to recognize the 
stakes that each of us has in that relationship.
    That is, how broad the stakes are and how great they are. 
Some of them are obvious. The fact that our two countries still 
have 95 percent of the nuclear weapons in the world mean that 
we also have primary stewardship for a nuclear world, for 
dealing with those states that have nuclear weapons, and 
dealing with those states that want to have nuclear weapons.
    Second, Russia is the world's largest producer of energy. 
We are the world's largest consumer of energy, and our most 
important allies in Europe are the most dependent on Russia for 
their energy supply.
    Other stakes are less obvious, but Russia is important if 
we intend to make progress on every issue from a looming 
competition over the vast hydrocarbon resources of the Arctic 
to coping with climate change.
    The list is much longer and very impressive, and I have 
included it in my written submission. If Russia is this 
important to us, and we are to them, then what should be done 
about the relationship?
    I would start by asking myself, where do we want United 
States-Russia relations to be 4 or 6 years from now? Not as a 
pie-in-the-sky exercise, but as a realistic attempt to create a 
vision that will then provide discipline and guidance for day-
to-day policymaking.
    Then I would set about three basic tasks at this stage. The 
first would be an attempt to change the tone in the 
relationship and to test the water of what could be done in 
United States-Russia relations by making several important 
symbolic gestures.
    We should start with the repeal of the Jackson-Vanik 
amendment. Do it quickly. Do it without fanfare, and do it 
without horse trading. But we should also <greek-l>to 
deg.accelerate to the extent that we can progress on Russia's 
accession to the World Trade Organization, and an early 
ratification of the comprehensive test ban treaty.
    The latter two, of course, are substantive and not merely 
symbolic, but they would be important in terms of this first 
step. Second, I would focus on three time-urgent problems in 
which we might hope to make progress with the Russians. I said 
hope. We need to measure the prospect of doing so. The first is 
the linked issue of Iran, its nuclear aspirations, and 
ballistic missile defense in Central Europe.
    The second is the follow-on to the START I Agreement that 
expires in December 2009; and the third is Afghanistan, and the 
prospects of cooperation, as well as dealing with what appear 
to be some of the obstacles to cooperation on Afghanistan.
    The third thing that I would do, and I would do it early 
on, may be more original than the things that I just described. 
In fact, the things that I just described are issues that have 
already been raised this morning in the hearing. And that is I 
would propose a deep and a far reaching strategic dialogue at 
the highest level of government, those with the Russian side 
and with the United States, that would focus on four broad 
basic areas that are framing issues for most of the issues that 
are troublesome now--that create turbulence within the 
relationship.
    The first is the question of European security. The second 
is the issue that I would call mutual security in and around 
the Eurasian land mass. The post-Soviet space is at the center 
of that. Russia is a centerpiece within that. That is at the 
very core of the problems that we have with Russia, and unless 
we can begin making headway in the way that allows each side to 
understand its respective roles the problems will continue.
    The third is a complex of issues in the area of nuclear 
security, and the fourth is energy security, a serious, 
strategic dialogue over the question of energy security. Thank 
you.
    [The prepared statement of Mr. Legvold 
follows:]<greek-l>Robert H. Legvold deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Berman. Ambassador Pifer.

   STATEMENT OF THE HONORABLE STEVEN PIFER, VISITING FELLOW, 
 CENTER ON THE UNITED STATES AND EUROPE, BROOKINGS INSTITUTION 
                 (FORMER AMBASSADOR TO UKRAINE)

    Ambassador Pifer. Thank you very much, Mr. Chairman, and 
members of the committee. Let me thank you for the opportunity 
to appear today to talk about United States-Russia relations, 
and I also would commend the committee for its early attention 
to this critical foreign policy issue.
    At the end of 2008, United States-Russian relations had 
fallen to their lowest point since the Soviet Union collapsed 
in 1991. Both Washington and Moscow shared the blame.
    After the high point in 2002, the Presidents became 
distracted with other issues. There was weak follow-up to 
Presidential commitments, and the sides increasingly were 
unwilling to adjust their positions to take account of the 
interests of the other.
    Dealing with Russia today is not easy. Moscow desires great 
power status, seeks to reduce the global influence of the 
United States, wants a sphere of ``privileged interests'' in 
the post-Soviet space, and has over the past 4 years pursued an 
increasingly assertive foreign policy, including use of energy 
as a political tool.
    The Russian leadership today, however, faces serious 
challenges. Foremost is a fragile economy. With the collapse of 
oil prices, and the global financial crisis, it is heading for 
a recession after 8 years of high growth.
    This clearly worries President Medvedev, and Prime Minister 
Putin, as does the prospect of possible social unrest. The 
question for our purposes today is: How will these challenges 
affect Russian foreign policy?
    One possibility is that they will feed the leadership's 
need for an enemy image of the United States to distract the 
populace from the country's economic woes. Alternatively and 
hopefully, they could lead the leaders to conclude that a 
calmer international context, including better United States-
Russian relations, would allow them to focus on tackling their 
domestic problems.
    The Obama administration has an interest in exploring 
whether United States-Russian relations can be put on a more 
solid footing. Securing Russian help on issues such as 
controlling nuclear materials, pressing Iran to forego nuclear 
arms, access to Afghanistan, and countering international 
terrorism, is in the United States interest.
    A more robust relationship, one that addresses issues of 
interest to Moscow, will give Washington greater leverage with 
Russia. The administration should seek a balance in its policy, 
making clear the unacceptability of actions that violate 
international norms, while encouraging a broader, more positive 
relationship.
    Washington should offer initiatives to test Moscow's 
readiness to put relations on a more even keel. First, I would 
suggest that the administration revive strategic nuclear arms 
reductions negotiations.
    This would lower the level of nuclear weapons, while 
exerting a positive influence on the broader relationship as 
arms control has done in the past. The administration should 
propose reducing United States and Russian strategic warheads 
to no more than 1,000 on each side, with limits on strategic 
missiles and bombers.
    Missile defense is a charged issue. I would suggest the 
administration impose a 2- or 3-year moratorium on construction 
of a missile defense system in Central Europe, taking advantage 
of the high probability that current plans would have that 
system operational well before the Iranians acquire a long 
range missile.
    The administration should tell Moscow that the moratorium 
could be extended were credible evidence to emerge that the 
Iranian missile or nuclear programs had been delayed or ended.
    Let me add one comment on Iran. We should seek a more 
robust Russian policy on Iran, but we should bear in mind that 
Moscow sees Teheran as its gateway to the Persian Gulf. 
Moreover, while the Russians do not want a nuclear armed Iran, 
they do not see it as the same nightmare scenario that we do.
    Given this difference in interests and sense of urgency, 
the Russians likely will not be as helpful as we would want. 
The administration should work to broaden commercial relations 
with Russia. The United States should support Russian entry 
into the World Trade Organization, and revisit the peaceful 
nuclear cooperation agreement.
    Also, it is time for Congress to graduate Russia from the 
provisions of the Jackson-Vanik amendment, and grant Russia 
permanent, normal trade relation status. Watever problems 
Russia has had with democracy, on emigration Russia has met the 
requirements of Jackson-Vanik.
    European security and in particular United States and NATO 
relations with Russia's neighbors will remain difficult issues 
on the agenda. The United States should take account of 
Russia's legitimate interests.
    But it should not accept a Russian sphere of influence and 
it should support the right of countries, such as Ukraine and 
Georgia, as sovereign states to determine their own foreign 
policy course.
    At the same time, the administration should consider ways 
to broaden NATO-Russia relations. There are many questions on 
which the alliance and Moscow can and should cooperate. Such 
cooperation will be key to the difficult task of changing 
Russian perceptions of NATO.
    Mr. Chairman, the United States and Russia are unlikely to 
agree on every issue, but those issues on which our interests 
converge can provide a foundation for a stronger relationship.
    During his February 7 speech in Munich, Vice President 
Biden indicated that the administration is ready to reverse the 
declining relations. As Washington puts forward its specific 
proposals, the test will be whether Moscow responds in a 
reciprocal manner.
    If it does, we should see welcome movement to strengthen 
the United States-Russia relationship. Thank you.
    [The prepared statement of Ambassador Pifer 
follows:]<greek-l>Pifer deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Berman. Thank you, Ambassador Pifer. Dr. 
Illarionov, it is good to have you here, and I recognize you 
for your opening statement.

 STATEMENT OF ANDREI ILLARIONOV, PH.D., SENIOR FELLOW, CENTER 
       FOR GLOBAL LIBERTY AND PROSPERITY, CATO INSTITUTE

    Mr. Illarionov. Chairman Berman, Ranking Member Ros-
Lehtinen, and distinguished members of the committee, thank you 
for the opportunity to share with you my views on the current 
state of the United States-Russia relations, and on possible 
consequences of its strengthening in the near future.
    I would start with the point of a statement of a 
disclaimer. Since I am a Russian citizen, and I am a former 
government employee of the Russian Federation, and since I am 
working at the Cato Institute here in Washington, which is a 
non-partisan think tank, not related to any particular 
political party here in the United States, as well as any 
country in the world, I am not in a position to provide any 
advices to you, distinguished members of the United States 
Congress, as well as the United States Government, or any 
government of the world.
    So that is why my testimony and my comments should not be 
taken as advice, but just as background information that you 
are welcome to use as you find it suitable. I would touch upon 
three issues.
    The first one is challenges from the past United States-
Russia relations; challenges to the Russian people, to the 
neighboring countries, and world peace form the current 
political regime in Russia; and third is the forecast of what 
could happen if the approach that has been announced and is 
being discussed right now by the current administration will be 
fulfilled fully.
    On the first issue, we have some past experience of 
approaches of at least two of the last United States 
administrations toward Russia. It is a very clear. Each of the 
two administrations, both President Bill Clinton, and President 
George W. Bush, started with great expectations, with a lot of 
efforts invested by the leaders of those administrations into 
bilateral relations, led to substantial disappointment, and 
finally to a great failure.
    Right now the beginning of President Obama administration's 
term resembles the beginning of the two preceding 
administrations' terms. We can see similar desire to improve 
bilateral relations, similar positive statements, similar 
promising gestures and visits.
    But since nothing has changed in the nature of political 
regimes in our or both countries, it is rather hard not to 
expect the repetition of an already known pattern, high 
expectations, deep disappointments and heavy failures, for the 
third time.
    So that is why before any new policy is implemented and 
even being formulated, it is worth to spend some time to 
analyze the reasons of the two previous failures. To my mind, 
they arise mainly from, first, the nature of the current 
Russian political regime.
    Second, a lack of understanding on the part of the United 
States the internal logic and intentions of the current Russian 
leadership. Third, the inability of the democratic nations to 
deal with the challenges of the powerful authoritative regimes.
    Fourth, the inability of the democratic nations to provide 
clear distinctions between the Russian Government and the 
Russian people.
    And the fifth, sometimes a double-standards approach in the 
United States policies toward similar issues on the 
international arena, and especially toward Russia.
    The third issue concerning the current political regime in 
Russia, Russia today is not a democratic country. The 
international organization, Freedom House, assigns ``Not Free'' 
status to Russia since 2004 for each of the last 5 years.
    According to the classification of the political regimes, 
the current one in Russia should be considered as hard 
authoritarianism, and the central place in the Russian 
political system is occupied by almost all political power by 
the members of the Corporation of Secret Police officers.
    If we look into the mass media, there is no independent 
mass media in Russia, and virtually none that is existing, and 
the TV channels, radio, printed media are heavily censored with 
government propaganda disseminating cult of power and violence, 
directed against democrats, liberals, westerners and the West 
itself, including the United States.
    And the level of the anti-United States propaganda is 
incomparable even with one of the Soviet times of the 1970s and 
1980s that at least I can recall myself.
    As for the electoral system, there is no free, open, 
competitive parliamentary or Presidential election in Russia at 
least since 1999 and the year 2000. The last two elections, the 
parliamentary one in December 2007 and the Presidential one in 
March 2008, have been conducted as special operations and been 
heavily rigged with at least 20 million ballots in each case 
stuffed in favor of the regime candidates.
    None of the opposition political parties or opposition 
politicians has been allowed either to participate in the 
elections, or even to be registered at the Ministry of Justice.
    Members of political opposition in Russia are regularly 
being harassed, intimidated, beaten by the regime's security 
forces. Each rally of the opposition since the year 2006 has 
been harshly attacked by the riot police; hundreds of people 
have been beaten, arrested, and thrown into mail.
    In the country right now according to human rights 
organizations, there is more than 80 political prisoners, 
compared to even our neighbor, Belarus, has released last 
political prisoners last summer. But Belarus is considered to 
be the last dictatorship in Europe.
    There is a base of terror in the last 10 years. Many 
people, and especially politicians, journalists, lawyers, who 
were in opposition to or independent of the current political 
regime, have been assassinated or died under very suspicious 
circumstances.
    In the last 6 years, we have had a number of wars that have 
been launched by the Russian regime against neighbors, 
including Belarus, Ukraine, and a number of wars like the 
Energy Supply War against Georgia, including the last war with 
conventional forces that started actually several years before 
the year 2008, when it became clear to many others.
    Chairman Berman. Dr. Illarionov, if you could start to sum 
up your statement because of the time and the votes.
    Mr. Illarionov. My last comment will be concerning the 
proposed collaboration, and revisionist. I think in the current 
situation, when the Russian leadership has announced that it 
has so-called privileged interests in the neighboring 
countries, the suggestion to increase collaboration with the 
political regime in Russia would be considered by these and 
actually considered, and it is actually met with 
dissatisfaction, and that it would be a clear indication to 
continue the policy of restoration of the fact of control and 
influence of the Russian Secret Police of the post-Soviet 
states.
    And in this case unfortunately we know what it means by 
deliberation from the European history of the 20th century, and 
who<greek-l> are deg. collaborationists are. So from the 
European history point of view, if a revisionist power has a 
clear-cut goal to restore influence and control over its 
neighbors, and where other powers choose not to defend victims 
of their attacks, but instead try to collaborate with an 
aggressor, we unfortunately know what could happen.
    So that is why we know the consequences of the 
collaborationist policy, and those who retreat and surrender 
will not get peace, but war, war with unpredictable and nasty 
results, and might also be not a one war. So that is why we 
should not say that we did not get the warning. Thank you.
    [The prepared statement of Mr. Illarionov 
follows:]<greek-l>Andrei Illarionov deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Thank you very much, Dr. Illarionov. The 
bells have gone off, and we have three votes on the House 
floor. I think I will recognize myself for 5 minutes of 
questions, and then we will recess for probably 40 minutes or 
so to have those three votes, and then resume the hearing 
immediately after the last of those three votes. So I yield 
myself 5 minutes.
    I would like to ask two questions. Since I only have 5 
minutes for questions and answers, if you could take a couple 
of minutes, Dr. Legvold and Ambassador Pifer, to respond to the 
conclusion that some of our members, and Dr. Illarionov, most 
vividly have portrayed about Russia.
    Essentially they argued that trying to enhance cooperation, 
to move from competition to collaboration, to improve relations 
with this current political regime, amounts to surrender. That 
in effect this regime is perhaps even worse than Belarus in the 
context of Dr. Illarionov's view, and that our colleague, Mr. 
Royce, said that essentially Russian interests and Russia's 
nature prevent some of the hopes you had. And so my first 
question would be if the two of you could just respond to that.
    And then to Dr. Illarionov, I have one question, which is 
notwithstanding everything you have said. Given the reasons 
that the Jackson-Vanik law was passed--which dealt with freedom 
of immigration for religious minorities--have been resolved, 
does a unilateral decision to repeal the Jackson-Vanik law 
based on the fact that the conditions for its passage have been 
met and its provisions have been waived regularly, does that in 
your way of thinking justify us standing true to our 
commitments that we have made to repeal it? Dr. Legvold.
    Mr. Legvold. I don't think there is any question that 
trends within Russia, particularly within the 8 years under 
President Putin--and they have not been fundamentally reversed 
under President Medvedev--have moved in the direction of semi-
authoritarianism, greater illiberalism, with consequences for 
the freedom of expression, the press, certainly assembly, 
capacity to organize effective political parties, create a 
diverse Duma, and all of that. Trends have gone in the wrong 
direction.
    The picture is more mixed from my point of view than Dr. 
Illarionov has presented, both in terms of how much access 
there is to reasonable information for the average Russian 
through media one way or another. And the conditions generally, 
which ought not to be portrayed as the equivalent of the Soviet 
Union. That is not what life is in Russia today politically, 
and it certainly is not as authoritarian as a country that I 
spent a fair amount of time studying and being in, which is 
Belarus.
    So that is a false comparison, but the real question is 
whether <greek-l>[a]  deg.there are some counter-trends within 
the country in this respect, and I think there are. One of the 
most interesting things that I have seen is a report that was 
issued a few weeks ago by the Institute of Contemporary 
Development, which is critical primarily in the context of the 
current economic crisis, of what have been the failings of the 
government first, to prepare the way for dealing effectively 
with something like this, and then the steps that they took in 
the early stages of it.
    But linked to the basic problems at this political level, 
and the need to begin opening the system, the report speaks 
specifically about what is necessary in order to get fuller and 
freer elections, talks about the need for judicial reform and 
improvement; talks about dealing with nongovernmental 
organizations, and having a decent and respectful dialogue with 
the public, with the business community, in order to confront 
this crisis directly.
    Why is this report and this organization interesting? 
Because the chairman of the board for this organization is 
President Medvedev, and Igor Jurgens, who heads this institute, 
is one of the closest intellectual advisors to President 
Medvedev.
    Chairman Berman. Dr. Legvold, there is only about 35 
seconds left. So I am going to interrupt you because time is so 
short. But Dr. Illarionov, on the Jackson-Vanik repeal issue, 
your opinion?
    Mr. Illarionov. I think this issue is certainly outdated 
for several years if not the case. The problem is the timing of 
the abolishment of this particular legislation, and how it is 
being interpreted. But in essence it is definitely outdated.
    Chairman Berman. And therefore should be repealed?
    Mr. Illarionov. Once again, I am not in a position to 
advise the United States Congress on what to do, but from the 
position of the Russian citizen, and Russian Government 
employees, it is absolutely outdated.
    Chairman Berman. I thank you <greek-l>both,  deg.all, and 
Ambassador Pifer, I am sorry that I didn't have a chance to 
hear you speak on this subject, but I have a feeling that we 
can work through your answer down the line.
    The committee is now in recess until after the third vote. 
We will be back to resume the questioning. Thank you very much.
    I am going to provide unanimous consent, if no one objects, 
to the introduction of written statements by the committee 
members who chose not to make oral presentations. Without 
objection, so ordered.
    [Recess.]
    Chairman Berman. If the witnesses could return to the box, 
we can resume cross-examination. Is Dr. Illarionov around? Oh, 
he did tell us that he had to leave at noon. But it is not noon 
yet. His papers are here.
    Ms. Ros-Lehtinen. Mr. Chairman.
    Chairman Berman. Yes.
    Ms. Ros-Lehtinen. My questions are directed to Dr. 
Illarionov, and it gave me an opportunity to practice the 
pronunciation. Since he is here----
    Chairman Berman. You can do that right now.
    Ms. Ros-Lehtinen. I will.
    Chairman Berman. Illarionov. Is that right?
    Ms. Ros-Lehtinen. You would think that someone with as 
complicated a name as I have would be able to tackle some of 
these other ones that are not as difficult. Thank you.
    Sir, in your testimony, you describe the uniqueness of the 
current political regime in Russia.
    One of the most important characteristics of the current 
political regime in Russia is that the real political power in 
the country belongs neither to one person, nor family, nor 
military junta, nor party, nor ethnic group.
    The power instead belongs to the ``corporation of secret 
police'' operatives.
    Reading the rest of your written testimony, is it fair to 
say that Russia today has become the first major nuclear arms 
state to fall under the control of a sort of mafia?
    Mr. Illarionov. Among political scientists and 
sociologists, there is a big debate concerning the 
classification of the organizations that professionally use 
force.
    They start usually with the states, with different private 
organizations using violence to mark it. So I would not like to 
start the debate here, but at least usual approaches as they 
put all these organizations together as a big group.
    Compared to other organizations like business companies, or 
corporations, they do not use violence. They use this kind of 
exchange for their products and services. So that is why 
generally speaking this is a big--some kind of a community or 
similar organizations that are professionally using force 
against other people.
    Ms. Ros-Lehtinen. Thank you. Continuing on with your 
written testimony, you state that even a brief look on the 
United States-Russia relationship over the last 10 years 
reveals the quite striking fact of the permanent retreat of the 
American side on almost all issues in the bilateral 
relationship.
    You cite specific examples, and you state that in all those 
cases the Russian side has suggested that the United States 
shut up, and in all those cases the American side has followed 
that advice sooner or later. There were no sanctions by the 
United States whatsoever for the behavior of the Russian 
authorities.
    What would you conclude from that? I know that you don't 
want to give policy advice, but how does the Russian Government 
see this lack of action by the United States as being an 
indication that they will suffer no repercussions were it to 
take further belligerent actions against its own people or 
across the borders?
    Mr. Illarionov. I would distinguish it between two axis; 
the Russian Government and the Russian leadership, and the 
Russian people. The Russian people do see this, and probably 
not all of them, but many of them, would see that there was a 
great concern because it would be considered of the United 
States, and also some other countries would take the other side 
in this battle between democratic and liberal forces in the 
country.
    For the Russian leadership, and especially those people who 
represent the security police officers, they would be 
considered as a clear acceptance of the status quo, and a clear 
acceptance of the year that Russian authorities and the Russian 
secret police would restore their influence and control first 
on the territory of Russia, and second on the territory of the 
post-Soviet space.
    So that is why it is considered to be as actually an 
invitation for future adventures in this area. That actually 
has been demonstrated so vividly in the last several months in 
the case of the aggression against Georgia, and aggressions 
against the Ukraine.
    Using your question if I may just to use the comments 
concerning one of the statements of the members of the 
committee concerning the so-called Georgian attack on South 
Ossetia.
    If you look into the general United Nations Assembly 
Resolution 3314 on December 14, 1974, which has a clear 
definition of aggression, there is a number of criteria. 
According to all these criteria, and without exception, what 
has happened in July and August of the year 2008 in Georgia 
clearly qualifies for aggression on the side of Russia/Ossetia/
Abkhazia versus Georgia, and Georgia was only returning with a 
quite substantial delay of actions in this regard.
    So we are talking about aggression, and even if I were to 
assume that de facto South Ossetia and Abkhazia were so-called 
party states, it would be an act of aggression on their side 
versus Georgia.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    Chairman Berman. The time for the gentlelady has expired. 
The gentleman from Massachusetts, Mr. Delahunt, is recognized 
for 5 minutes.
    Mr. Delahunt. Yes, thank you. I would like to address my 
questions to Dr. Legvold. I appreciate all of your testimony. 
If Georgia had been a member of NATO would we have been 
obligated to involve ourselves militarily in the conflict of 
August? That is one question.
    The second question would be there has been discussion 
about the understanding or purported understanding between the 
United States and Russia in the aftermath of the demise of the 
Soviet Union, and conversations between Gorbachev and then 
Secretary of State Baker regarding expansion of NATO. What is 
your understanding?
    And could you provide us with the European views of the 
relationship between, their view of the relationship between 
themselves and Russia and the United States and Russia? Where 
is the sentiment?
    And also in terms of NATO is there polling data indicating, 
particularly in the case of Ukraine what the Ukrainian 
population feels about accession to NATO?
    Mr. Legvold. On the first question, had Georgian been 
within NATO, and we had not in the accession to NATO made a 
formal exclusion of Article 5 guarantees, yes, then we would 
have been committed to defend it.
    The issue of Article 5 guarantees did arise when we were 
considering Baltic admission to NATO, because the implications 
of that are very severe, and the decision was that there can't 
be a two-track or a discriminatory version of membership within 
NATO.
    Mr. Delahunt. Let me rephrase it. We could have potentially 
been at war with Russia in August?
    Mr. Legvold. We would have had an obligation to defend 
Georgia.
    Mr. Delahunt. Which meant that we would have been at war 
with Russia if Georgia----
    Mr. Legvold. Yes, of course.
    Mr. Delahunt. Thank you. And then if you could go to the 
next question.
    Mr. Legvold. The second question was in terms of NATO 
enlargement and the original understanding. The Russian 
leadership believes that they had assurances that there would 
be no enlargement of NATO beyond German borders, and they have 
even recently continued to cite a specific conversation with 
German leadership.
    President Putin did it in the Munich speech in 2007 and on 
other occasions, and there are people who have participated on 
both sides of this in the United States and in Russia, who take 
different positions on what was the understanding.
    I think it is a cloudy issue, and my impression is that in 
fact people were not thinking in terms of NATO enlargement. So 
it was never from my point of view in a way where it was 
clarified.
    But the way that they talked about the issue generally has 
allowed the ambiguity to remain. That is, in effect what the 
Russian leadership has long said, going back to 1994 and 1995 
with the first movement toward enlargement, is that at a 
minimum it violates the spirit of what they thought was 
happening at the time.
    And the Americans say technically, no, there was no such 
assurance. The world has changed, and we have moved in this 
direction. So there is a kind of unfortunate ambiguity around 
that question, and I think neither side can claim to be right.
    In terms of Europe's general attitude on Russia, it is 
plain that the Europeans for the most part, although the 
Europeans themselves are divided--the new members of the 
European Union or of NATO would have a different view from 
Germany, France, Italy, and so on--are in favor of engaging 
Russia.
    They are not in favor of drawing new red lines or waging a 
new Cold War. They have believed all along that we cannot 
afford but to engage Russia.
    They have growing concerns about what Russia did and are 
increasingly and directly critical of Russian action in Georgia 
in particular. But in general, they certainly are in favor of a 
broad-based engagement of Russia.
    On the NATO enlargement issue, again there is division. The 
Swedes, and the Poles, and the Brits, were in favor of the 
American position of rapid movement for Georgia and Ukraine 
toward membership, including the so-called membership action 
plan.
    The Germans, with the French standing at their back, and 
the Italians, and a number of others, are opposed to hot-
housing the process. That is, of rushing the process, and they 
blocked it in the course of the last year. That is still very 
much the German position. I think that people recognize that we 
can't move beyond that.
    Chairman Berman. I recognize the issue of public opinion of 
people in Ukraine was your question that did not get answered, 
but the time has expired.
    I didn't perhaps explain it clearly enough, but on the 
questions, it is 5 minutes for the question and the answer. I 
am going to recognize another member, but my guess is that you 
will have an opportunity to get into this issue. The gentleman 
from Texas, Judge Poe, is recognized for 5 minutes.
    Mr. Poe. Thank you, Mr. Chairman. I appreciate you all 
being here. Dr. Illarionov, I apologize for the way that I 
pronounce your name. My whole name has six letters in it.
    So when I look at Russia and Putin, I see right across from 
Putin's chest KGB, and I think now he is wearing a shirt on the 
outside and instead of covering it up. It seems to me that the 
Russian bear is coming out of its cave because it got its 
feelings hurt because of the fall of the Soviet Union, and now 
it is trying to regain its territories.
    But my question to you is that it seems that the Russians 
think that the United States has given them a free hand in the 
region, that they can do as they wish. When Putin invaded 
Georgia, his approval ratings went up tremendously, and of 
course the world has moved on.
    Georgia was in the news for a few weeks, and then we just 
disregarded it. I was in Georgia, and they have lost 35 percent 
of their country to the Soviets, or the Russians I should say, 
building a naval base in Abkhazia, and I think in your 
testimony that you said that the current policy is worse than 
appeasement. It is more like surrender. Can you explain a 
little more of that and what you mean about that
    Mr. Illarionov. First, I don't know if I would use myself 
the story of the Russian bear, I am sorry, and I do believe 
that anybody, including the former members or even the retired 
officers of the KGB, has a right to improve. It includes 
everybody, including those who are occupying different 
positions in the Russian Government.
    The problem is not in one person, but in the concentration 
of people with particular security background and training, and 
vision in the government offices. If you have 77 percent who 
have been trained to use force against other people, and 
occupying their top 1,000 positions, so that is why you have a 
critical mass of people who do not have the training, and 
opportunity, and experience in toleration and listening to 
other views, and to finding consensus views.
    So that is a problem from my point of view. Second, as for 
opinion polls, I would suggest that we probably should not 
believe too much of the results of opinion polls in 
authoritarian regimes, and authoritarian states, and terrorist 
states, and dictatorship states.
    If we have the results from North Korean opinion polls, 
should we believe that those are the exact desires, and 
thinking, and vision of North Korean people?
    As for your questions concerning surrender, I mean first of 
all surrender on the issue of human rights and democracy. That 
is why it is normally an American agenda. First of all, the 
agenda for the Russian people, because for them this is of 
critical importance.
    This is a life and death issue for millions of people in 
Russia, and that is why the United States administration and 
other countries abandoning Russian people, as well as people in 
other post-Soviet countries on the issue of human rights, and 
independent unions and courts, and elections, and even 
aggression against neighbors. So that is why they would concede 
that the United States administration is switching sides.
    Mr. Poe. A follow-up question on that. Can you explain a 
little more what you think the Russian attitude about American 
foreign policy toward them is?
    Mr. Illarionov. To what?
    Mr. Poe. What do you think the Russian attitude is about 
American policy toward Russia?
    Mr. Illarionov. Certainly different people have different 
views, and I am not in a position to reproduce opinion rules, 
especially as we know that they are heavily biased, but some 
people----
    Mr. Poe. Well, the government status, the government's 
position?
    Mr. Illarionov. The government status, or the government's 
position is reflective in the government's propaganda in the 
Russian media. It has been anti-United States propaganda for 
several years, going on for 24 hours a day.
    And the United States is considered the main enemy, and it 
is not a very big secret to anybody who has spent just a few 
hours on Russian soil, and they would easily detect it, as well 
as your representatives in the United States Embassies, or any 
visitor in Russia.
    Mr. Poe. And do they assume that the United States is a 
paper tiger?
    Mr. Illarionov. I would not go into these details on how 
they would consider them, but they would consider them the main 
enemy.
    Mr. Poe. All right. I yield the rest of my time to Mr. 
Delahunt to follow up on the NATO question.
    Mr. Delahunt. I thank my friend. I was referring to polling 
data of the Ukraine, and not from Russia, and Professor, if you 
are aware of what the sentiment is?
    Chairman Berman. If you could just take 10 seconds to 
answer that.
    Mr. Legvold. Just 1 second. Actually Ambassador Pifer is 
very close to this issue because of his association, and he can 
correct the figures, but there has regularly been a very 
substantial majority against NATO membership within Ukraine.
    Ukraine, both geographically and politically, is divided on 
the issue, but a substantial majority is against it, and this 
then becomes part of the policy debate with the Russians.
    Chairman Berman. The time for the gentleman has expired. 
The gentleman from Georgia will be the last questioner. We have 
one vote, and so after his questions, we will recess, but only 
for about 10 minutes, and walk over, and come right back.
    Mr. Scott. Thank you, Mr. Chairman. I really think that the 
question is does Russia really want to be a partner with us, 
and can they be a partner with us. I think that their very 
existence is tantamount and based on a foundation of having the 
United States of America as an adversary.
    I mean, there are so many areas, and I think that each of 
you have mentioned in your own way that we need to find areas, 
and I agree, of engagement, to try engagement, but where? Where 
can we engage them? On every front that we have?
    I mean, we can't engage them internally with their abuses 
to the personal freedoms that they are doing to the people in 
their own country. They run from an axis of the KGB, the mafia, 
and internal corruption within their entire system.
    I think that there is a fear within the Russian people. You 
mentioned that one area of commonality should be that we are 
the world's largest user of energy. Russia is the world's 
largest producer of energy. That ought to be a fit.
    But they turn and use their energy as a political weapon 
against their European neighbors; turning it off, and turning 
it on, and using them in a sense. Their last act, in terms of 
their area in Afghanistan where we might cooperate, rather than 
be cooperative, for whatever reason, they use their influence 
with Kyrgyzstan, and the Manas Air Field, which is the main 
provider of the supply lines for our troops in Afghanistan, to 
close it down.
    So the question becomes how do we dance with them when they 
refuse to get on the floor and dance with us, and where can we 
dance with them? Where can we engage them, and is it possible 
to engage them given the circumstances and the points that I 
just made both externally and internally to what is happening 
in Russia. I mean, that is the fundamental question here.
    Chairman Berman. Ambassador Pifer.
    Ambassador Pifer. No, I think that is a very good question, 
and what the administration needs to do is to come up with some 
ideas to test that proposition. You are dealing with a 
resurgent Russia, but it is perhaps less resurgent than it was 
6 months ago as the economic and financial crisis hits home.
    And the question in my mind is, if you offer proposals that 
do take account of Russian interests--I would argue that there 
is room to do something on strategic nuclear arms reductions, 
probably on missile defense--what kind of response do you get?
    We can put forward some ideas, test them, and see what kind 
of Russian response we get. It is worth making that test. My 
own assumption is that based on what the Russians have said, 
for example, in response to the Vice President's comments in 
Munich, and things that I heard in Moscow in December, is that 
the Russians would respond with positive gestures of their own.
    Mr. Scott. Let me follow up if I may to just one point on 
the missile defense. How do you think we could engage them on 
that, and still keep our standing with the Czechs and the 
Poles, who sort of stuck their necks out there with us? How do 
we do that?
    Ambassador Pifer. Well, the question seems to me is, what 
is the way of getting rid of an Iranian long range ballistic 
missile threat? The Bush administration's plan was to have the 
sites in Poland and the Czech Republic operational in 2012.
    Most analysts that I have talked to expect that the 
Iranians will not have a missile that is capable of reaching 
all of Europe and the United States until probably the 2015 
time period.
    The most optimistic pronouncement that I have seen publicly 
was President Bush, when he said that with foreign assistance 
Iran might have such a missile by 2015.
    And it seems to me that that time frame gives us a couple 
of years, and therefore, my suggestion is that if we had a 
moratorium, where we could continue to go ahead and test the 
system, we could continue to go ahead with long term 
procurement of items, but no actual construction in Poland and 
the Czech Republic.
    And then go to the Russians and say we can extend this 
moratorium if there is credible evidence that the Iranians have 
backed away on their missile program, or on their nuclear 
program.
    Now I am not sure that the Russians would then crank up the 
pressure on Teheran, and I can't tell you that if the Russians 
were to do so the Iranians would respond. But at the least this 
would defuse this as a United States-Russia issue at least for 
a year or 2, and it would make clear it is linked to Iran and 
not Russia.
    Chairman Berman. The time of the gentleman has expired. We 
will recess for about 10 minutes, and Dr. Illarionov let us 
know beforehand that he could only be here for--oh, you will 
stay? Very good. The committee is recessed.
    [Recess.]
    Chairman Berman. The gentleman from California, Mr. 
Rohrabacher, is recognized for 5 minutes.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. It was 
a very important hearing in the science committee, and so I was 
unable to be here during the opening statements, and I would 
just like to make a few comments and hopefully a couple of 
inquiries.
    But let me just note that I served as a special assistant 
to President Reagan during his 7 years of his 8 years in the 
White House, and I am very proud that I served you might say, 
as the tip of the spear in our efforts to bring down the Soviet 
Union.
    But let me note that since the demise of communism in the 
Soviet Union, and now Russia, I have been just appalled at a 
continuing belligerent attitude by policy wonts and others in 
the United States toward a non-Communist Russia.
    Ronald Reagan and those of us who fought the Cold War were 
fully aware that the Russian people were not our enemies, and 
instead it was the tyranny of communism that threatened the 
United States.
    Yet, we have continued to beat the Russian bear to death, 
and it is unconscionable, and it has led to I think some of the 
negative things that are being talked about today can be traced 
to a hostile attitude by the United States toward a non-
Communist Russia.
    The fact that we treat Russia as a pariah, we held Jackson-
Vanik over their heads. We have never given them a most favored 
nation status. We have excluded them from world markets. Yet, 
another country, Communist China, which has had no reform 
whatsoever, the world's worst human rights abuser, unlike 
Russia, which doesn't permit any NGOs or any freedom on the 
press, they get treated like they are our brothers.
    And we should have open markets to China, and this 
difference and the treatment of Russia evolving out of 
communism, and the way that we have treated China, suggests, or 
would suggest to the Russian people that we consider the 
Russian people our enemies.
    And I think we have had a missed opportunity in these last 
10 years in particular, and I would hope that the current and 
new administration under President Obama does punch the reset 
button, and try to get things back together with Russia.
    The Russian people should have been treated after communism 
fell as America's potentially best friends, but instead we 
continued to treat them in a hostile manner as if they 
continued to be an enemy, as demonstrate by our expansion of 
NATO, which was I think an understanding that the Cold War was 
over, and what was NATO going to be all about.
    But instead they have every right to be disappointed, and 
think that we are acting in a belligerent way when we try to 
expand NATO right to their borders. Ronald Reagan meant for the 
missile defense system that he so firmly believed in to be a 
partnership with Russia if Russia gave up its claims and 
control of Eastern Europe.
    I heard him say that himself a number of times, and 
instead, we put the Czechs and the Poles on the spot by what, 
by moving forward with a missile defense system, and putting it 
right on Russia's borders.
    Of course it is seen as a belligerent act, and I think that 
we need to move forward, and the EU, of course has kept Russia 
totally out of its market. It is a monopoly in itself, the EU.
    They have spent hundreds of billions of dollars developing 
their own rocket system to launch satellites from the EU, 
rather than using Russian launches. What was Russia to do? How 
are they going to make any money if they are excluded from 
markets like that?
    So as we listen to the testimony today, and from what I 
have heard, I think that we need to keep that in mind. That, 
yes, certainly there is a lot of imperfections going on among 
the Russian leadership today, but we I think have not done our 
job of making friends out of a former enemy.
    And in fact some of the inherent belligerence in the policy 
and in professionals here in Washington, DC, I think have had a 
very negative impact on what was a potential friendship.
    Now I only have 19 seconds left for you to comment on that 
diatribe.
    Chairman Berman. Actually, I think there is a logic, with 
Dr. Illarionov to be the commentor. You have about 15 seconds.
    Mr. Illarionov. Right. I think that President Reagan was 
right. The Russian people are not the enemy to the United 
States people, and I think the real enemies of the United 
States people are our Russian thugs. But first of all, they are 
enemies to the Russian people.
    Chairman Berman. The time of the gentleman has expired, and 
the gentleman from New Jersey, Mr. Payne, is recognized for 5 
minutes.
    Mr. Payne. Thank you very much. I am sorry that I missed 
the testimony. I was at another hearing. But I certainly agree 
with the premise that the Russian people are still certainly 
the victims.
    I had the privilege to travel to the USSR, and I visited 
Russia for several weeks in 1967, and the Russian people--as a 
matter of fact, I was kind of impressed by some of the 
literature which said that the Russian people don't want war. 
That was one of the first books that I saw in a bookstore.
    And the people, believe it or not, at that time were very 
fearful of the United States of America, the so-called 
imperialists. And as you know, they had such a toll of death 
during World War II that they were really still at that time 
trying to regroup themselves.
    So I think that the leadership, of course, and that is the 
problem in most countries, the leadership, are the ones that 
used the people. But they truly were fearful of Americans, and 
the way that America was characterized by the leadership.
    Of course, we saw that the USSR found that it couldn't 
afford the continued military backup. The only difference 
between them and us was that they recognized it, and that is 
why they quit, and that is when the Iron Curtain came down, and 
the Warsaw Pact nations dissolved.
    But I just have maybe a quick question or two. I had the 
opportunity to be in Georgia several months ago, and had dinner 
of course with President Saakashvili, and I just still wonder 
with the South Ossetia situation, or whether the President of 
Georgia was sort of sucked into something, and kind of went 
over the line, and of course had this tremendous response by 
the Russian military.
    And whether he was sort of lulled into this thing, and got 
in certainly over his head. I don't know what he was thinking.
    And the second quick question is the Russians have said 
that they would be willing to assist us in our transports since 
the air strip in Kyrgyzstan is being closed. What do you think 
about that offer, Ambassador?
    Ambassador Pifer. Let me start on the Georgia question. 
There is lots of evidence that the Russians were behaving 
provocatively prior to the August conflict, and the speed of 
the Russian military response shows that the Russians had 
prepared for it. They were ready for it, and they were probably 
grateful for the pretext.
    But there still was a decision taken by President 
Saakashvili on August 7 to send the Georgian military into 
South Ossetia, and I think had he not made that decision, there 
would not have been a conflict.
    There may have been the potential at some point down the 
road, but there was still this decision that I think was 
strategically unwise on his part.
    Chairman Berman. Anybody on Kyrgyzstan?
    Mr. Legvold. If I may, I think in the case of Afghanistan, 
with both the issue of Manas and the offer by Medvedev and 
others to facilitate the transit of non-military goods across 
Russia, through Kazakhstan, Uzbekistan, and forward, is a 
reflection of a problem in Russian foreign policy.
    It is a problem in any country's foreign policy when it is 
premised on the notion that you can have your cake and eat it 
too, because I think the Russians generally would be concerned 
if the United States and NATO effort fails in Afghanistan, and 
they end up with either a Taliban regime that threatens their 
southern front, or with enormous chaos within Afghanistan that 
produces a different kind of a threat in the area.
    And in general when they say they want to cooperate, 
including a broader cooperation with the members of the so-
called Shanghai Cooperation Organization, which means China as 
well, they mean it.
    But at the same time, they continually seek to marginalize 
and then push the United States' military presence from Central 
Asia. That is trying to have your cake and eat it, too.
    Mr. Payne. Before my time expires, Doctor, would you 
respond to either one of the questions on Saakashvili or the 
base?
    Mr. Legvold. I agree with what Ambassador Pifer says about 
the essential responsibility. The only thing that I would add, 
and I think we ought to pay attention to it, is the people like 
Nina Burjanadze, who was the Speaker of the Parliament, who was 
Saakashvili's partner in making the Rose Revolution in 2003, is 
making the same claim you are these days.
    That is, she asks, how did we get ourselves into this 
situation, and what responsibility does Saakashvili bear for 
it? And in December their ambassador, and permanent 
representative to the U.N., Irakli Alasania, did the same 
thing. He joined the political opposition to Saakashvili in 
large part over the war.
    Chairman Berman. The time of the gentleman has expired. 
Later on, Dr. Illarionov, if you wanted to respond to that, I 
will give you an opportunity. The gentleman from California, 
Mr. Royce, is recognized for 5 minutes.
    Mr. Royce. Thank you, Mr. Chairman, I appreciate it. I 
wanted to bring up this issue of Viktor Bout, which is an 
important issue for those of us who have been involved in that, 
as Don Payne and I have been, in seeing the results of the arms 
trade in sub-Saharan Africa, and the consequences of fueling 
those brutal civil wars on that continent.
    Viktor Bout is a Russian citizen. He is known as the 
Merchant of Death allegedly for fueling these wars, and he was 
arrested last year in Thailand. Federal Prosecutors in New York 
are seeking his extradition. They would like to have him stand 
trial for conspiracy to provide material support to a foreign 
terrorist organization.
    Two dozen members of this House, including Chairman Berman, 
recently sent a letter to the administration asking that this 
extradition request remain a priority in United States-Thai 
relations.
    And for that we were criticized by the Russian foreign 
ministry. They called our action bewildering. To me what is 
actually bewildering is the foreign ministry statement 
that<greek-l>, quote, deg. ``his guilt on charges put forth in 
the United States has not been proven.''
    And for us, of course, it has not been proven because in 
this country, you get a fair trial to decide your guilt or 
innocence. I am an advocate of a productive United States-
Russian relationship, but it can't be built on disdain for 
justice as shown by Russian efforts to protect Bout.
    Many suspect a level of Russian state sponsorship for 
Bout's actions in the past, and Dr. Illarionov's testimony 
points to a huge number, and I think you said 77 percent of top 
Russian officials have a security background.
    I assume that means former GRU or KGB, or GRU or KGB is 
what you are referring to, and I would ask how you gauge Viktor 
Bout's influence with the Russian Government. That would be 
very interesting to me.
    Mr. Illarionov. I have to apologize, but I have no 
specialty in the case of Mr. Bout. I just know that the Russian 
Government has expressed its desire that Mr. Bout should not be 
prosecuted, and should be returned to Russia. That is the 
official statement of the Russian Government some time ago. If 
I may use this time to just comment on that issue.
    Mr. Royce. Please, yes. Absolutely, Mr. Chairman.
    Mr. Illarionov. Just concerning the question of Mr. Payne 
concerning the Georgian war. There is overwhelming evidence 
that, first of all, that it was an act of aggression on the 
part of the Russian/opposition troops.
    According to the definition of aggression, there was a 
heavy deployment of the Russian regular troops prior to August 
7 on the territory of Georgia, and in the territory of South 
Ossetia, with heavy equipment, with a number of units, which 
totaled up to 2,000 regular troops, plus several hundreds, if 
not thousands, of volunteers, and that also constituted an act 
of aggression according to the U.N. General Resolutions of 
3314.
    So that is why the response and the actions of Mr. 
Saakashvili and the Georgian Government later on August 7 is 
considered to be the response to the act of aggression.
    Mr. Royce. Well, that is an interesting theory, but----
    Mr. Illarionov. It is not a theory. It is fact.
    Mr. Royce. It is a theory, because I sat through an 
infinite number of briefings, as have you. This is a very 
complicated situation. But if we could go to the other two 
witnesses, I would like to ask the Ambassador and Doctor----
    Mr. Illarionov. I really appreciate that, but this is a 
fact.
    Mr. Royce. We understand your understanding of the facts. 
It is a complicated case, but I would like to get back to the 
Bout case. So if I could have a response from either of the 
other witnesses.
    Ambassador Pifer. Congressman, I think that the Russian 
statement said that his guilt has not been proven. In that 
case, Russia should not object to his being extradited to the 
United States and standing trial. Trying to block an 
extradition I don't think does Russia credit.
    Mr. Royce. Thank you, Ambassador. Doctor.
    Mr. Legvold. I agree entirely with what Ambassador Pifer 
has just said. I think it is a big mistake on their part. This 
is a case that I also have been interested in, because one of 
the things that I work on is the problem of corruption within 
the post-soviet space.
    And it is clear that Bout, although I don't think he was an 
instrument of the Russian Government--I think his was quite a 
separate operation--was enabled by being able to work with 
parts of the establishment.
    He would not have been able to build up that transport 
network with the Ilyushin-76s and he would not have had access 
to the arms that he was able to trade, if he had not been able 
to get that assistance from officials or people close to 
officials. Not only in Russia, but in other post-Soviet states 
as well. So this was a problem that extended beyond Russia. It 
includes the Ukraine and it includes Kazakhstan.
    Mr. Royce. Mr. Chairman, might I just say that in my 
opinion, neither--and back to the other issue--the actions of 
President Saakashvili or the actions of the Russian Government 
have been helpful in the least in terms of stabilizing the 
situation in the Caucasuses, but I thank you for the hearing.
    Chairman Berman. Thank you. Everyone here has had a chance 
to question. I have a couple of questions. So if everyone 
promises not to come into the room and ask some more questions, 
maybe the four of us can have a second round. Is that all right 
with your time schedule? Are you okay with that? Okay.
    I will yield myself a couple of minutes here. I was a 
little confused about your focus on the long range Iranian 
missiles in your written testimony, and you made reference to 
it again orally.
    Iran has a very active missile program. They have modified 
SCUDS, and they are developing and have their own missiles. 
They just orbited a satellite. When you define the problem in 
the context of dealing with Iran, and you say either their 
weapons program or their missile program, if one takes that and 
focuses on deferring the missile program, you are essentially 
saying that their weapons program with the missiles they now 
have and are working on don't constitute a short term threat.
    But in the context of the regional stability in the Middle 
East, and what now exists, I am wondering if that is not a 
mistake to provide that sort of alternative focus, Ambassador.
    Ambassador Pifer. Mr. Chairman, that is a good question. 
The missile defense system that was planned by the Bush 
administration for deployment in Poland and the Czech Republic 
did not as I understand it have any capabilities against 
existing Iranian missiles.
    Chairman Berman. I think that is correct.
    Ambassador Pifer. It is really designed to deal with an 
Iranian missile that would have range either to reach the 
United States or all of Europe, and most of the projections 
that I found suggest that the experts--and of course we don't 
have perfect knowledge--but the expectation is that Iran would 
not have a missile of that range until at least 2015.
    So that seems to give us some time given the difference 
between the planned operational date for the sites in Poland 
and the Czech Republic in 2012, to try to address this issue in 
a diplomatic way, with the focus being on getting rid of that 
missile perhaps through diplomacy, that the missile deployment 
in the Central European area is designed to counter.
    Chairman Berman. Well, I take what you say, but focusing on 
that will not eliminate and does not deal with the issue of 
Russian cooperation in a program to stop Iran's nuclear weapons 
capability, and all that that represents for instability and 
danger in the Middle East.
    Ambassador Pifer. And that is clear, but what my hope would 
be is that with other proposals--for example, if we begin to 
take more account of Russian concern on strategic nuclear arms 
reductions, in terms of crafting a proposal that meets some of 
their desires--can you change the relationship in a more 
positive way, where you encourage them to become more helpful 
on the nuclear issue.
    And you have also got to go to the Russians and say, Look, 
it is not just a question about Iran getting a nuclear weapon. 
But what happens if the Iranians do so? What does Egypt do, and 
what does Saudi Arabia do, and what does Turkey do?
    You also create a situation where the proliferation 
tensions in the Middle East could spiral way beyond what would 
be in either country's interests.
    Chairman Berman. I guess I just prefer the articulation of 
if we can deal with the threat of the Iranian nuclear weapons 
program, our need for a missile defense against nuclear-tipped 
missiles becomes very different. But I take your point.
    Ambassador Pifer. Mr. Chairman, I think you are exactly 
right. If Iran abandons their nuclear weapons program, I 
suspect that we would not be that concerned--if they have a 
long range missile, but all they have is a conventional 
warhead----
    Chairman Berman. Right.
    Ambassador Pifer. It certainly is many orders of magnitude 
less than the nuclear weapon on top.
    Chairman Berman. My time has about expired, and I recognize 
the ranking member, Ms. Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. Just 
some little nuggets from the doctor's testimony: Today's Russia 
is not a democratic country and the international human rights 
organization, Freedom House, has assigned a ``not free'' status 
to Russia since 2004.
    For each of the last 5 years according to the Freedom House 
classification of political regimes, the current one in Russia 
should be considered as ``hard authoritarianism.'' The doctor 
goes on to say that independent mass media in Russia virtually 
does not exist.
    Since 1999, there has been no free, open or competitive 
parliamentary or Presidential election in Russia. Members of 
the political opposition in Russia are regularly harassed, 
intimidated, beaten by the regimes' security forces, and on and 
on.
    I would like to ask you, sir, in your written testimony you 
mention the 1999 apartment building bombings in Russia. I was 
wondering if you could elaborate more on what you think 
occurred, and who you think was responsible for those bombings. 
Thank you.
    Mr. Illarionov. It is still several elements that are quite 
unclear, because there was no proper investigation of these 
cases, and the very one case in the City of Ryazan, when the 
local militia has detained several people who tried to bomb the 
apartment building, and they turn out to be FSB agents.
    They had been released from detention, and after that 
virtually disappeared. And seeing them, and seeing the same 
kind of journalists investigation have been broadcasted 
partially in Russia and became known, these apartment bombings 
stopped exactly unexpected as they started.
    Ms. Ros-Lehtinen. Thank you, Mr. Chairman, I appreciate it.
    Chairman Berman. The gentleman from California--perish the 
thought--from Massachusetts, Mr. Delahunt.
    Mr. Delahunt. In your dreams. [Laughter.]
    Chairman Berman. Nightmares. [Laughter.]
    Mr. Delahunt. It is interesting, and I just want to read 
into the record an excerpt from the Human Rights Report on 
Georgia. It is dated today, February 25, 2009, relative to the 
murky nature, if you will--and this is our own Department of 
State, which one could argue has been supportive of Georgia.
    I am sure you are both or you are all aware that there was 
under the Bush administration some $1 billion appropriated for 
reconstruction in Georgia. I am reading from the Human Rights 
Report:

          ``August 7, Senior Georgian Government officials 
        reported that Tbilisi was launching an attack to defend 
        against what it reported was a Russian invasion. 
        Georgia launched a military operation into the capital, 
        the local capital of Georgia, South Ossetian region, 
        and other areas and separate borders, responding to 
        what Russian officials reported was Georgia's use of 
        heavy force and the killings of Russian peacemakers. 
        Military operations by Georgia and Russian forces 
        reportedly involved the use of indiscriminate force and 
        resulted in civilian casualties, including a number of 
        journalists.''

    It is murky. Earlier, and I think it was the ranking 
member, but there was a discussion about forcing--and if I am 
misstating this, I am sure I will be corrected, but was forcing 
Russia from the G-8. I would like to hear your response to that 
initiative. Dr. Legvold, we will start with you.
    Mr. Legvold. As a general proposition, I think with all 
ideas on how to deal with Russia, including that idea, the 
criterion ought to be what is going to work.
    What is going to make a difference to the way in which the 
Russians behave, particularly in areas where we are concerned 
about what they are doing, and in this instance, what is 
happening internally within Russia.
    I would raise questions about <greek-l>[a]  deg.its 
feasibility, but then secondly also about its effectiveness. 
Feasibility because it simply will not pass within this body. 
But even were it to do so, it would not be supported by the 
other six members of the G-8. That is quite clear.
    They have a very different approach to Russia, and 
therefore it will actually stand in the way of something else 
we need to accomplish, which is strengthening the Euro-Atlantic 
partnership, because we need to create some consonance around 
our respective Russia policies. This will work against that.
    In terms of the effect within Russia itself, I think if 
anything it would be counterproductive. It certainly would be 
counterproductive in terms of the chance of accomplishing what 
Ambassador Pifer is saying of testing the waters, and seeing 
whether we can make progress in other areas where we have very 
important interests at stake, including the Iranian nuclear 
issue. But also strategic arms control, energy partnership, 
dealing with some important areas of regional instability, 
including the Middle East. So for those two reasons, I think we 
want to act in ways that are essentially pragmatic.
    Chairman Berman. The gentleman from California, Mr. Royce, 
is recognized for 5 minutes.
    Mr. Royce. I would like to hear the assessments here in a 
little more detail on the chances of getting meaningful 
cooperation from Russia on the subject of the Iranian 
proliferation issue, and the Iranian development of nuclear 
weaponry.
    I have my view on this, that the chances of it are pretty 
small, but I would like to hear from the experts. It seems 
obvious to a lot of us, and as was stated before, it would be 
very much in Russia's interests not to let the genie get 
further out of the bottle, and not to set off the arms race 
across the Sunni countries in the Middle East.
    But maybe a little more detail about the dynamics 
internally, and why Russia has not come to this conclusion, 
because it is not in their long term interests. And let me ask 
one other question, too, because there was a Wall Street 
Journal Op Ed recently, and the writer there wrote:

        ``A Cold War mentality lingers in America, too. A 
        foreign policy, cast rich in Sovietologist by habit, 
        overstates Russia's importance. The Embassy in Moscow 
        is huge. Bilateral meetings inevitably become summits 
        like the old days.''

    Why is that wrong? I mean, in point of fact, maybe we want 
that intense engagement and understanding. But anyway I would 
like your observations.
    Ambassador Pifer. Well, Congressman, on the Russia 
question, I do not believe that the Russians think that a 
nuclear armed Iran is a good thing, but there are several 
factors which make it, Russian policy, such that they are not 
as helpful as we would like.
    First of all, if you look at that space between the 
Mediterranean and India, Iran is really the Russians' one 
geopolitical gateway. So they don't want to put at risk their 
geopolitical interests, the economic interests they have in 
terms of trying to participate in Iran's development of energy, 
in terms of arms sales to Iran.
    So there is an interest question. Second, I believe that 
the Russians do not see the Iranian capability to acquire 
nuclear weapons coming as quickly as we do. So that sense of 
urgency is not there in the same sense that it is here in 
Washington.
    And, third, while Iranian development of a nuclear weapon I 
think for us is a nightmare scenario, for the Russians, it is a 
bad thing, but they believe that they can manage it.
    It is sort of like when Pakistan tested nuclear weapons in 
1998. They think they can manage that. I disagree with that.
    Mr. Royce. Do the Russians still think that about Pakistan?
    Ambassador Pifer. Well, the Russians would prefer not to 
see nuclear weapons in Pakistan, but they have come to the 
conclusion that they have to deal with it. It is a reality.
    So I just think that there is that mismatch in that sense 
of urgency that we attach to what the Russians attach. I do 
believe that we can get them to be somewhat more helpful, but 
in terms of providing all of the sticks that would be useful in 
the sense of making the choice between the Iranians as stark as 
possible, between good things that would happen if they make 
the right choice, and bad things that would happen if they 
won't. We are not going to get the Russians to push out as far 
as we would like.
    Mr. Royce. After what happened in Beslan and in North 
Ossetia, I would just think the Russians would have so much 
more trepidation about where fanaticism--or taking people like 
A.Q. Kahn, who have been quite pronounced in terms of his 
commentary on radical Islamist thought, and the way that this 
is evolving in Southern Russia.
    I know a couple of Duma members who are moderate Muslims 
from Dagistan, and they report with horror what is happening in 
their society to the young men who don't join up with a Jihad. 
Any discussion of that in Moscow in terms of how that is 
growing in Southern Russia, and eventually threatening the 
state?
    Mr. Legvold. I think the way in which this issue currently 
is getting a good deal of attention is actually in connection 
with Afghanistan, and the concern over the potential impact of 
the Taliban, which the Russians, the Chinese, and especially 
the Kazakhs, see as suddenly advancing in the context of the 
deteriorating situation in Afghanistan.
    I think they worry more about the effects of their 
developments on Islamic extremism in the North Caucasus and 
other portions of Russia. I don't think it is a major factor in 
the Iranian relationship.
    As a matter of fact, over time the Russians have counted on 
the Iranians to help control the issue of Islamic extremism 
among the Shia in the Caucasus.
    Mr. Royce. Thank you.
    Chairman Berman. The time for the gentleman has expired. 
The gentleman from California, Mr. Sherman, is recognized for 5 
minutes.
    Mr. Sherman. I am going to first pick up on Congressman 
Royce's view. I think you have explained well why the Russians 
aren't going to change their policy if the status quo remains 
the same.
    The question is: What can we put on the table that would 
get them to change their policy? How high a price would they 
demand for being as strong on Iran at the United Nations, for 
example, as we are?
    And I would like you to take off your expert hat just a 
little bit because experts know all the reasons why we can't 
change our policy more than an inch in any direction. If we put 
on the table, and you should add a few more things to this, 
because you would know more about what the Russians want.
    But if we were to put on the table the idea that we will 
not support pipelines for Caspian gas and oil that don't go 
through Russia, that we will not build a missile defense in 
Poland and the Czech Republic. That we will recognize the 
independence of South Ossetia, Aphesia, Moldova.
    That we will put on the table every date and thing that you 
know that we are not going to do because you know all the 
reasons that we shouldn't do it, would that be enough to get 
Russia on our side when it comes to Iran? I will ask first Dr. 
Legvold.
    Mr. Legvold. Congressman, first of all, I don't know 
whether that would have the effect you seek, but I have a deep 
conviction that we should not do it. It would be wrong to do 
that. I think we need to deal with each of the issues that----
    Mr. Sherman. If we stove pipe everything, we can do, 
the<greek-l>, quote, deg. ``right thing on everything, and we 
will have a nuclear weapon in Iran.''
    Mr. Legvold. We may not get Russian cooperation----
    Mr. Sherman. Well, obviously you would take these 
concessions without getting Russian cooperation. Whether it is 
worth it or not depends upon whether you are worried about a 
nuclear weapon from Iran being smuggled in.
    Mr. Legvold. Well, it is a question of feasibility, and 
whether it would work.
    Mr. Sherman. Well, obviously you put it on the table 
secretly, and if you don't get a scent, you didn't do it.
    Mr. Legvold. I still think it is a mistake.
    Mr. Sherman. Okay.
    Mr. Legvold. But I think that each of these issues needs to 
be dealt with in its own terms.
    Mr. Sherman. We call that stove piping, and let me on. Does 
either of the other witnesses have a comment?
    Ambassador Pifer. I would just add that it seems to me that 
you want to have a structure and approach toward Russia where 
you look at the broad range of issues.
    Mr. Sherman. Well, why would we look at any issue other 
than the Iran nuclear program given its importance, and how can 
you argue that the risk of a nuclear bomb being smuggled into 
America by Iran is equivalent to anything else on your list?
    Ambassador Pifer. I am not arguing that, Congressman.
    Mr. Sherman. Okay. Anyway, I am asking your advice on how 
to get Russia's support, and not reasons why the price would be 
too high. What price will work?
    Ambassador Pifer. Well, what I am looking at is you take 
steps to begin to change the relationship from where it is now 
to----
    Mr. Sherman. I have 6 months to get a U.N. resolution 
through that is harsher than anything that the United States 
has proposed, let alone what Russia has voted for. So I am not 
talking about changing the--you know, baby steps.
    Ambassador Pifer. Well, again, I would suggest that by 
offering a different approach to strategic arms reduction, and 
where the Russians said the previous approach that the United 
States offered limits on operational deployed warheads to 
2,200, and then left an unlimited number of spare warheads, and 
no limits on missiles and bombers. I would go back to a more--
--
    Mr. Sherman. Do you think that the concessions by the 
United States on those issues would secure Russia's support on 
the Iran issue?
    Ambassador Pifer. By itself, no.
    Mr. Sherman. Okay. Then you don't have to tell me what 
else, but we are running out of time, and I want to shift to 
another issue. Russia is in an unusual position. As to natural 
gas moving across the Ukraine, they are the consumer of an 
easement across the Ukraine to export their gas.
    As to natural gas from the Caspian area, they are the 
provider of an easement, or want to be the provider of an 
easement across Russian territory, and to some extent they are 
already.
    Is Russia taking a consistent position on what the easement 
provider should charge per MCF mile between what they would 
charge for transport across their territory, versus what 
Ukraine is obtaining for transport across Ukraine? Does anybody 
have an answer?
    Mr. Illarionov. If I may, as this is a very complicated 
issue because there is no free market in this particular area.
    Chairman Berman. And you have 25 seconds to do that.
    Mr. Illarionov. There is no particular rules that you can 
suggest. What we know about the rates that apply to different 
parts of the transportation is quite different, and sometimes 
there is just a difference----
    Mr. Sherman. So Russia might be demanding far more from 
Kyrgyzstan than it is willing to pay Ukraine?
    Mr. Illarionov. You can try.
    Mr. Sherman. I am sure they will. I yield back.
    Chairman Berman. The time for the gentleman has expired, 
and I was wondering if we gave Alaska back would that be 
enough.
    Mr. Sherman. Even I draw the line somewhere. Would they 
have to take the current governor? Okay.
    Chairman Berman. I guess the gentleman from California will 
close this hearing.
    Mr. Rohrabacher. I will try to make it exciting, Mr. 
Chairman.
    Chairman Berman. I was thinking quick. [Laughter.]
    Mr. Rohrabacher. Mr. Sherman touched on something when he 
talked about the pipeline issues, and what I seem to have 
observed since the end of the Cold War, since the fall of 
Communism in Russia, is that we have expected Russia not to act 
in its interests, and then be very upset with them when they 
act in their interests, which of course is the interests of 
another nation state, as if that was some sign of belligerence 
to everybody else.
    I mean, Russia ended up charging below the market value on 
market price for gas to Ukraine, and when they decided to try 
to charge a higher price, which was still not the market price, 
we treated them as if they were doing something wrong.
    Does the United States just decide that we are going to 
give energy or other of our resources below the world market 
price to somebody else? Are we expected to do that? I don't 
think so.
    Let me note that when I first heard that Russia was going 
to be involved in building a nuclear plant in Iran, I went to 
the American Embassy, and I happened to be going through Russia 
at the time, and I also went to the top people in the National 
Security Council, and people, this is during the Clinton 
administration, and said, look, this is going to be a disaster.
    Let us give the Russians an alternative. The reason that 
they want to build this power plant is obviously because their 
economy is in such a horrible situation, they need the money. 
Let us give them an alternative.
    Oh, yes, that is a great idea, but nobody moved on it. So 
Russia moved forward. When Bush came in, I did the same thing 
the first 3 months of the Bush administration.
    Here is a list of potential problems, and Afghanistan was 
number one. Number two was Russia building a nuclear power 
plant in Iran. Let us give them an alternative. No, the 
alternative was don't do it. We could have easily said, hey, 
let us arrange for the World Bank to give you loans so you can 
build one of these in Malaysia, or Turkey, or some other 
country that wouldn't threaten us.
    But, no, we had to treat them with the least respect that 
we could of anybody else. They just needed to do what we told 
them, and not what was in the interests of their country. If 
somebody treated us that way, we would have second thoughts 
about being their friend, too.
    And I just think we have treated Russia in a belligerent 
way, and in an arrogant way, and now we are paying the price 
for it. I hope that we can have better relations with Russia, 
because if we are going to have a peaceful world, if we are 
going to have prosperity and peace in this world, it is going 
to be because we have a strong and positive relationship with 
Russia, with Japan, with India, and several other major powers.
    Because China is threatening us and our national security 
in the future. Yet, we treat China with kid gloves. Not only 
kid gloves, but we give them most favored nation status.
    We ignore their massive human rights abuses, while we 
complain about imperfections--and the Russians have many 
imperfections, and treat those imperfections as if we should 
ignore all the progress they have made since the fall of 
communism.
    This double-standard I think is taken as perhaps 
belligerence on the part of the Russian Government, and maybe 
if we were being treated that way, we would think the same. And 
that was my rant, and please feel free to comment.
    Chairman Berman. Dr. Illarionov, you indicated that you 
wanted to comment on the rant?
    Mr. Illarionov. Mr. Chairman, if I may just comment----
    Chairman Berman. Is that the double-standard that you were 
referring to in your testimony?
    Mr. Illarionov. Yes, exactly, but if I may just comment on 
the question that Mr. Delahunt had raised some time ago, and 
you had promised me some time.
    Chairman Berman. Yes.
    Mr. Illarionov. Okay. First about the double-standards, and 
the question about the G-8 membership, it is very well known 
that since the year 2004 that Russia has not qualified in the 
main criteria of the G-5 to be a democratic country.
    This is the first line of the charter and the statement of 
the declaration of G-8 in 1975. So it seems then that virtually 
Russia is the only country that is not qualified to be a member 
of G-8, and the other issue is what to do about it.
    Second, concerning the question of Mr. Delahunt on what 
would happen if the United States happened to be in a war with 
Russia if Georgia would be a member of NATO. My answer to your 
question would be that if Georgia would have received that at 
the Bucharest summit, there would be high probabilities that 
there would be no August war, and there are four reasons for 
that.
    The first is the final decision to launch against Georgia 
has been taken not before the Bucharest summit, but after the 
Bucharest summit by the Russian leadership. Only after they had 
received the final result of this Bucharest summit.
    Second, the State Duma of the Russian Federation has 
listened to the special report of security services on how to 
launch and organize the military contained in Georgia, in South 
Ossetia in the middle of April, after the Bucharest summit.
    And it has explained all the details and all the steps that 
should be taken to get independence for South Ossetia and 
Aphesia; and what has happened in reality was completely 
confirmed in the reports that have been listed and detailed, 
and discussed in the State Duma in the middle of April of the 
year 2008.
    Third, in the year 2007, there was another very substantial 
problem in Estonia, the so-called monuments inside the war, and 
the problem in Estonia was much harsher than in Georgia, 
because one-third of the Estonian populations are Russians.
    Nevertheless, because Estonia was a member of NATO, there 
was no aggressions. And my final comment would be just that it 
is a pure intellectual exercise if you think that in 1938, 
1939, or 1940, that Czechoslovakia would be a member of NATO if 
NATO would exist at that time, and Poland, and Finland, and 
Romania, I would guess that it is not a 100-percent guarantee, 
but there would be a high probability that there would be no 
Second World War.
    Chairman Berman. The gentleman's time has expired. I want 
to thank all of you for coming today. I appreciate very much 
both your testimony, your answers, and your written statements, 
which are, I think, quite fascinating. And with that the 
hearing is adjourned. Thank you very much.
    [Whereupon, at 1:03 p.m., the committee was adjourned.]
                                     

                                      

                             A P P E N D I X

                              ----------                              


 Material Submitted for the Hearing Record<greek-l>hearing notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>hearing minutes deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Chairman Berman statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Gerald Connolly deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Manzullo deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Michael McMahon deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Watson deg._

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
